          U.S. Department of Energy
          Office of Inspector General
          Office of Audits and Inspections




Inspection Report
Alleged Procurement and Hiring
Practice Irregularities within the Office
of Policy and International Affairs




INS-L-12-04                           June 2012
                                 Department of Energy
                                   Washington, DC 20585

                                         June 22, 2012


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR POLICY AND
               INTERNATIONAL AFFAIRS


                                     for
FROM:                    Sandra D. Bruce
                         Assistant Inspector General
                            for Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Alleged Procurement and
                         Hiring Practice Irregularities within the Office of Policy and
                         International Affairs"

BACKGROUND

The Office of Policy and International Affairs (PI) has primary responsibility for the
Department's international energy activities including international emergency management,
national security and international cooperation in science and technology. To accomplish its
mission, PI has contracts with various subject matter experts such as Rhodium Group, LLC
(Rhodium). Rhodium combines policy experience, quantitative economic tools and research to
analyze global trends. The Rhodium contract, valued at approximately $992,000, was executed
in September 2010 as a 2-year contract.

The Office of Inspector General received a complaint alleging inappropriate actions taken by
senior PI officials concerning the Rhodium contract and inappropriate personnel practices related
to hiring and promoting of Federal employees within PI. We initiated an inspection to review
the facts and circumstances surrounding the allegations.

CONCLUSIONS AND OBSERVATIONS

We were unable to substantiate the allegations. Specifically, we found no evidence during our
review to support the allegations that senior PI officials:

    •   Improperly awarded a sole-source contract to Rhodium based on a PI official's personal
        affiliation with a Rhodium official;

    •   Converted a former Rhodium employee to a Federal employee based on a PI official's
        prior affiliation with the employee;
    •   Directed PI rating officials to lower employee performance ratings to facilitate a
        reduction-in-force (RIF) and the subsequent hiring of additional personnel; and,

    •   Misused their official position to assist a PI employee, with whom the official had a
        covered relationship, in obtaining promotions.

Personal Affiliation

Our review did not substantiate the allegation that a senior PI official improperly awarded a
sole-source contract to Rhodium based on the PI official's personal affiliation with a Rhodium
official. We determined that PI's procurement actions were implemented through the
Department's Office of Management (MA). Our review confirmed that the Contracting Officer
(CO) within MA followed the requirements in the Federal Acquisition Regulations to award a
sole-source contract to Rhodium. According to the CO, the sole-source award was adequately
justified.

The justification prepared by PI asserted that Rhodium was the only private sector organization
capable of providing unique capabilities critical to achieving PI's objectives. These objectives
included assessing the impact of existing and prospective energy-related domestic and
international policies on the U.S. economy, national energy security and the global climate.
During an interview with the CO who executed the Rhodium contract, we confirmed that the
appropriate procurement actions, including justifications and signatures to award the sole-source
contract, were taken. Further, a senior PI official told us that the decision to award the contract
was based on the reputation and unique services that Rhodium provided and was not at the
direction of any senior PI official.

Hiring Irregularities

We were also unable to substantiate the allegation that a senior PI official converted a former
Rhodium employee to a Federal employee based on the official's prior affiliation with the
employee. Further, we did not find evidence to support the allegation that a senior PI official
directed PI rating officials to lower employee ratings to facilitate a RIF and the subsequent hiring
of additional personnel.

                                Conversion to a Federal Employee

We determined that PI's hiring process was implemented by the Department's Office of Human
Capital. An official from the Office of Human Capital, Human Resources (HR) informed us that
it is difficult to influence the hiring process for program offices, including PI, because the hiring
process is implemented externally from the program office.

Our interview with the senior PI official disclosed that the official did not know the employee in
question prior to the employee working for the Department. Also, our review of the employee's
resume and hiring package revealed that the employee was selected from the "best qualified"
certification list. Further, we noted that the employee did not identify Rhodium as one of the
entities in which the employee had prior work experience. Finally, we found no indication that


                                                  2
there was a prior affiliation between the senior PI official and the individual hired. Based on
testimonial evidence and documentary reviews, we did not find anything improper about the
hiring of the individual.

                                        Reduction in Force

During our review we found no evidence to support the allegation that a senior PI official
directed rating officials to lower employee performance ratings to potentially facilitate a RIF in
order to hire additional employees. During our interviews with five senior PI officials, we were
informed that the PI officials' respective units planned to hire additional employees at various
levels (GS-14 and below) based on resources identified in PI's Fiscal Year 2012 budget. Also, a
senior PI official informed us that based on budget uncertainties, PI had explored opportunities
such as hiring freezes and reallocating funds to ensure that a RIF was not necessary. In
reviewing the PI Hiring Actions (Plan), we determined that PI hired two employees at the GS-15
level and promoted one employee to a GS-15 during the period, March 2011 to January 2012.
Our review of the Plan did not reveal any evidence that hiring additional employees would result
in a RIF.

In addition, we interviewed six PI rating and reviewing officials who stated that they were never
directed to lower employee ratings to facilitate a RIF. However, three of the officials stated that
the Department had previously expressed concerns over "inflated ratings." Specifically, one
senior PI official provided us with a copy of the Department's Fiscal Year Performance
Guidance for 2009 that provided guidance for accurately assessing individual employee
performance. Another senior PI official provided us with a copy of a message, Fiscal Year 2011
Performance Evaluation Message to PI Staff, which included the following language: "It is PI's
goal to ensure ratings are meaningful, fair and reflective of pay for performance." Based on
interviews and document reviews, we were unable to substantiate the allegation that a senior
official directed the lowering of employee ratings.

Misuse of Position

During our review, we found no evidence to support the allegation that a senior PI official
misused their position to assist another PI employee, with whom the official had a covered
relationship, in obtaining promotions. According to Title 5 Code of Federal Regulations, Part
2635, Subpart 101, the Standards of Ethical Conduct for Employees of the Executive Branch, an
employee has a covered relationship with a person who is a member of the employee's
household, or who is a relative with whom the employee has a close personal relationship. We
interviewed the official's supervisor who told us that the official was not assigned any work that
was related to the covered employee and that the official voluntarily removed themselves from
any activities related to the covered employee. Further, a Departmental HR official informed us
that HR was aware of the covered relationship and that PI officials had taken actions to ensure
that the senior PI official is not involved in matters related to the covered employee. Our review
of the covered employee's hiring package did not disclose evidence of the PI official reviewing
or approving the packages. Further, our review determined that the covered employee was on
the "best qualified list" and, in some instances, was the only individual who applied for the
various positions representing promotions.

                                                 3
Because we found no evidence to support the allegations regarding inappropriate actions taken
by senior PI officials, no recommendations are being made in this report; therefore, a response is
not required. We appreciate the cooperation received from your staff during our inspection.

Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Chief of Staff




                                                4
                                                                                      Attachment
                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this inspection was to determine the facts and circumstances surrounding
allegations of inappropriate actions taken by senior Office of Policy and International Affairs
(PI) officials with regards to awarding a sole-source contract to the Rhodium Group, LLC, and
hiring and personnel practice irregularities within PI.

SCOPE

This allegation-based inspection was performed between September 2011 through April 2012 at
the Department of Energy Headquarters in Washington, D.C. To accomplish the inspection
objective, we:

    •   Interviewed Federal employees from PI, Office of Management and Office of Human
        Capital; and,

    •   Reviewed and analyzed the contract documents including the justification to award
        Rhodium Group, LLC a sole-source contract; Federal regulations related to conflicts of
        interest and sole-source contract awards; hiring and promotion documents; and PI's
        Hiring Plan (March 2011 to January 2012).

METHODOLOGY

We conducted this inspection in accordance with the Council of the Inspectors General on
Integrity and Efficiency's Quality Standards for Inspection and Evaluation, January 2011. Those
standards require that we plan and perform the inspection to obtain sufficient, appropriate
evidence to provide a reasonable basis for our conclusions and observations based on our
inspection objective. We believe the evidence obtained provides a reasonable basis for our
conclusions and observations based on our inspection objective. The inspection included tests of
controls and compliance with laws and regulations to the extent necessary to satisfy the
inspection objective. Because our review was limited, it would not necessarily have disclosed all
internal control deficiencies that may have existed at the time of our inspection. Finally, we
relied on computer processed data, to some extent, to satisfy our objective related to personal
affiliation and hiring irregularities. We confirmed the validity of such data, as appropriate, by
conducting interviews and reviewing source documents.

An exit conference was waived on June 6, 2012.




                                                5
                                                                    IG Report No. INS-L-12-04


                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message clearer to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report which would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name __________________________________ Date _______________________________

Telephone ______________________________ Organization _________________________


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
